Audit Report

Planning, Implementing, and Enhancing Tribal Courts Grant Awarded to the Chickasaw Nation, Ada, Oklahoma

Audit Report GR-80-05-002


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of the Chickasaw Nation Tribal Court Enhancement Implementation Project, grant number 2002-IC-BX-0011, awarded by the U.S. Department of Justice, Office of Justice Programs, to the Chickasaw Nation in Ada, Oklahoma.  The purpose of this grant was to support the development, implementation, enhancement, and continuing operation of tribal judicial systems.  As of August 13, 2004, the Chickasaw Nation was awarded a total of $657,517.  Initiatives under this program include establishing a core structure for a tribal court; improving case management; training court personnel; acquiring additional equipment; enhancing prosecution and indigent defense; supporting probation, diversion, and alternative sentencing programs; accessing services; focusing on juvenile services and multi disciplinary protocols for child physical and sexual abuse; and structuring intertribal appellate systems.  

We tested the Chickasaw Nations compliance with essential grant conditions and found weaknesses in two areas tested  reporting and grant expenditures.  Our report contains four recommendations that are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope, and methodology appear in Appendix I of the report.  

As a result of the deficiencies found, we question costs in the amount of $47,371.1   We discussed the results of our audit with Chickasaw Nation Tribal Court officials and have included their comments in the report, as applicable.

   



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs.